September 2006
Report No. 06-017


DRR’s Protection of Bank Employee
and Customer Personally Identifiable
Information
                                                                                                   Report No. 06-017
                                                                                                    September 2006


                                   DRR’s Protection of Bank Employee and Customer
                                   Personally Identifiable Information
                                   Results of Audit
Background and
Purpose of Audit                   Overall, through various policies and procedures, DRR has established certain
                                   controls over the resolution and receivership process addressing the protection of
The FDIC’s Division of             sensitive bank employee and customer personally identifiable information.
Resolutions and Receiverships      Among the policies and procedures is DRR’s Failed Financial Institution Closing
(DRR) has primary                  Manual, which identifies the responsibilities of key DRR officials and highlights
responsibility for resolving       certain important controls for securing and establishing accountability for
failed FDIC-insured                sensitive information. During our review of documentation supporting the four
depository institutions            most recent institution closings, we found that DRR had implemented the controls
promptly, efficiently, and         as designed.
responsively in order to
maintain public confidence in      However, given the increased risks associated with, and attention being placed on,
the nation’s financial system.     identity theft, we identified opportunities for DRR to strengthen controls over its
In performing their duties,        handling of sensitive bank employee and customer personally identifiable
DRR personnel have access to       information obtained during the resolution and receivership process. In
a wide variety of records          particular, DRR had not established a Records Management Program that defines
containing personally              recordkeeping requirements for the inventory, maintenance, control, and use of
identifiable information of a      hardcopy documents. As a result, personally identifiable information could be at
bank’s employees and               increased risk of compromise or unauthorized use.
customers. The adequacy of
DRR’s controls over such           Further, other matters came to our attention during the audit relating to the
information has become more        FDIC’s contract with Iron Mountain, Inc. for off-site records storage and the
important with the increased       FDIC’s overall Records Management Program administered by the Division of
attention on the issue of          Administration (DOA). We provided these matters for DOA consideration in its
identify theft.                    current effort to draft an FDIC records management manual.

The overall objective of the       Recommendation
audit was to determine
whether DRR adequately             The report recommends that DRR work with DOA, and other cognizant FDIC
protects personally identifiable   divisions and offices, in developing a DRR Records Management Program that
information collected and          would include guidelines for the inventory, maintenance, use, and control of
maintained as a result of          hardcopy records containing personally identifiable information from failed
resolution and receivership        institutions. DRR management concurred with the recommendation and is
functions. We focused our          forming a working group, which, in consultation with DOA and others, will
attention on DRR efforts to        develop records management guidance specific to their needs.
protect information maintained
in hardcopy form. We intend        With regard to the other matters discussed in the report, DOA management
to conduct a future audit that     indicated it is taking appropriate actions to address issues associated with the Iron
more fully addresses DRR’s         Mountain, Inc. contract. Additionally, DOA will evaluate our information
controls over personally           regarding the overall Records Management Program as the division continues to
identifiable information in        improve the program.
electronic form.
_______________________
To view the full report, go to
www.fdicig.gov/2006reports.asp
BACKGROUND

Within the FDIC, DRR has the primary responsibility for resolving failing FDIC-insured
depository institutions promptly, efficiently, and responsively in order to maintain public
confidence in the nation’s financial system. In performing their duties, DRR personnel
have access to a wide variety of records containing personally identifiable information of
a bank’s employees and customers. Such records include: bank employee payroll
records, customer deposit records, and customer loan records.

DRR’s Bank Resolution Process

DRR’s Failed Financial Institution Closing Manual (Closing Manual) contains
procedures for closing an FDIC-insured financial institution when the institution is placed
into receivership. Although the Closing Manual is not intended to provide detailed,
technical explanations of tasks to be performed (such detail is contained in other FDIC
manuals and directives), the Closing Manual does provide closing procedures and
guidelines for each program area participating in the closing. Based on the Closing
Manual, other manuals and directives, and interviews with DRR officials, the summary
below briefly outlines DRR’s bank resolution process and provides a general overview of
the types of bank employee and customer personally identifiable information that may
come into DRR’s possession both during and after the closing of a failing FDIC-insured
institution.

•   At the outset of the resolution process, DRR’s Business Information Systems Section
    (BIS) receives a download of an institution’s electronic records from either the failing
    institution’s computer system or its data processing servicer, if one was used.
    Generally, this download consists of loan files, deposit account files, employee
    personnel files, and accounting files and may contain such bank employee and
    customer personally identifiable information such as name, address, Social Security
    number (SSN), and account number and balance. BIS makes this information
    available to other DRR operating groups that use the information to carry out closing-
    related tasks. (Other DRR operating groups include: Institution Sales, Asset Sales,
    Claims, Investigations, and General Accounting.)

•   From the download, DRR’s Pro Forma Team2 creates a closing trial balance
    consisting of all the institution’s assets and liabilities passing on to the FDIC in its
    capacity as receiver. This trial balance becomes the beginning inventory of the
    resulting receivership.

•   DRR Institution Sales personnel use the downloaded data to establish estimates of the
    values of the institution’s franchise and its assets for marketing purposes. In
    performing this work, Institution Sales may share bank information with prospective
    bidders of the bank franchise and any contractor that may be assisting with the sale.

2
 DRR’s Pro Forma Team is comprised of the Financial Manager, Pro Forma Team Leader, Pro Forma
support staff, and a tax specialist. The purpose of the Pro Forma Team is to produce an accurate adjusted
Statement of Condition of the failed institution.


                                                     2
•   DRR’s Asset Sales, Claims, Investigations, and General Accounting groups work
    with the bank records in both hardcopy and electronic format to carry out closing-
    related responsibilities. Records that are needed for DRR’s ongoing resolution
    process (such as loan files and employee records) are shipped to the Dallas Regional
    Office where they are stored until no longer needed. As with Institution Sales, Asset
    Sales may share certain bank information with potential purchasers when conducting
    resolution-related work.

Federal Laws and Guidance Related to the Protection of Personally Identifiable
Information

The primary statute that regulates the federal government use of personally identifiable
information is the Privacy Act of 1974. The Privacy Act covers a broad range of privacy-
related issues, but there are two elements that apply specifically to our audit objective.
The FDIC, according to the Act, is responsible for (1) maintaining in its systems of
records only such information necessary and relevant to the function the Corporation is
required to perform either by statute or by executive order of the President and
(2) establishing reasonable administrative, technical, and physical safeguards to assure
that records are disclosed only to those who are authorized to have access.

The Privacy Act has been augmented by a number of other laws, regulations, and
guidance, including the E-Government Act of 2002, which includes the Federal
Information Security Management Act of 2002 (FISMA); Section 522 of the
Transportation, Treasury, Independent Agencies, and General Government
Appropriations Act, 2005 (Section 522);3 OMB Circular No. A-130, Management of
Federal Information Resources, Appendix I, Federal Agency Responsibilities for
Maintaining Records About Individuals; and OMB’s Memorandum, M-03-22, OMB
Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002.
These laws and regulations require government agencies to enhance and, in several cases,
report on their privacy programs.

The E-Government Act of 2002 provides protection for personally identifiable
information in government information systems or information collections by requiring
that agencies conduct Privacy Impact Assessments (PIA).4 In general, agencies must
conduct a PIA before (1) developing or procuring information technology that collects,
maintains, or disseminates information that is in a personally identifiable form or
(2) initiating any new electronic data collections containing personal information on 10 or
more individuals other than federal employees and agencies. Among other actions that
should require a PIA, according to guidance from OMB, is the significant merging of
information in databases, for example, in a linking that “may aggregate data in ways that
create privacy concerns not previously at issue” or “when agencies systematically
3
 This Act is division H of the Consolidated Appropriations Act, 2005.
4
 The E-Government Act defines a PIA as “an analysis of how information is handled: (i) to ensure
handling conforms to applicable legal, regulatory, and policy requirements regarding privacy; (ii) to
determine the risks and effects of collecting, maintaining, and disseminating information in identifiable
form in an electronic information system; and (iii) to examine and evaluate protections and alternative
processes for handling information to mitigate potential privacy risks.”


                                                      3
incorporate into existing information systems databases of information in identifiable
form purchased or obtained from commercial or public sources.” Bank employee and
customer information that DRR collects during the resolution and receivership process
falls into this category of information.

Appendix II further describes the laws and regulations applicable to DRR’s protection of
personally identifiable information.

Federal guidance related to records management has been promulgated by the National
Archives and Records Administration (NARA).5 Specifically, NARA publishes
handbooks, conducts workshops and other training sessions, and furnishes information
and guidance to federal agencies about the creation of records, their maintenance and use,
and their disposition. Agencies, in turn, must institute adequate records management
controls over the maintenance and use of records wherever they are located to ensure that
all records, regardless of format or medium, are organized, classified, and described to
promote their accessibility and are available for use by all appropriate agency staff for
their authorized retention period. Agencies must ensure that they maintain adequate
information about their records moved to an off-site records storage facility. Also,
agencies must ensure the proper, authorized disposition of their records and must
periodically evaluate records management programs.

FDIC’s Records Management Program and Efforts to Address the Protection of
Personally Identifiable Information

The FDIC’s Division of Administration (DOA) administers a corporate-wide Records
Management Program and, as a matter of policy, complies with the policies and
procedures promulgated by NARA. DOA records management policies and procedures
apply to all FDIC divisions and offices and govern the management of records created in
the course of conducting business and records received by the FDIC from failed financial
institutions. DOA facilitates the records disposition and storage process through its
Records Management Unit and designates division and office Records Liaisons to
cooperate with the DOA Records Manager serving their respective geographic locations.

For active records, FDIC operating divisions, such as DRR, are required to develop their
own policies and procedures regarding inventory, handling, and storage practices.
Additionally, according to FDIC Circular 1210.18, FDIC Records Management
Program:

        Division and Office Directors shall support the FDIC Records Management
        Program as follows: (1) designate a records liaison who shall work with
        appropriate Records Manager in implementing policies and procedures;
        (2) promote the creation of adequate documentation throughout their organization

5
  Under the National Archives and Records Administration Act of 1984, NARA is responsible for
promulgating records management regulations related to the adequacy of documentation and records
disposition. The Act and regulations promulgated thereunder are not legally binding on the FDIC, but the
FDIC intends to follow them as a matter of policy.


                                                    4
       by defining the recordkeeping requirements for their programs in procedural
       manuals or other documentation. Recordkeeping requirements define the kinds of
       records each division or office should create and maintain to document their
       business activities; and (3) establish records management programs within their
       organizations that are consistent with FDIC policy and executed by division and
       office staff.

In accordance with Section 522, in March 2005, the FDIC appointed a Chief Privacy
Officer (CPO), within the Division of Information Technology (DIT), with overall
responsibility for the Corporation’s Privacy Program and designated a Privacy Program
Manager to support the CPO in developing and implementing corporate privacy
requirements. The objective of the Privacy Program is to ensure that the FDIC is taking
appropriate steps to protect personally identifiable information from unauthorized use,
access, disclosure, or sharing and to protect associated information systems from
unauthorized access, modification, disruption, or destruction.

The FDIC has issued a wide range of guidance to its employees on privacy-related
matters. Specifically, DIT has issued a series of e-mails corporate-wide related to
privacy and has established a Privacy Program Web site to assist employees in
understanding the Privacy Act and the privacy policies of the Corporation. Further, as
part of establishing a security program, the FDIC has developed and implemented several
security-related directives. The following are most applicable to the protection of
personally identifiable information:

   •   FDIC Circular 1031.1 – Administration of the Privacy Act.

   •   FDIC Circular 1301.3 – Data Stewardship Program.

   •   FDIC Circular 1310.3 – Information Technology Security Risk Management
       Program.

   •   FDIC Circular 1360.1 – Automated Information Systems (AIS) Security Program.

   •   FDIC Circular 1360.8 – Information Security Categorization.

   •   FDIC Circular 1360.15 – Access Control for Automated Information Systems.

The circulars are summarized in Appendix II. As discussed previously, our audit did not
focus on controls over personally identifiable information in electronic form and related
information technology controls.




                                            5
RESULTS OF AUDIT

Overall, through various policies and procedures, DRR has established certain controls
over the resolution and receivership process, addressing the protection of bank employee
and customer personally identifiable information. Among the policies and procedures is
the DRR Closing Manual, which identifies the responsibilities of key DRR officials and
highlights certain important controls for securing and establishing accountability for
sensitive information that is collected and maintained during the resolution and
receivership process. During our review of documentation supporting the four most
recent institution closings,6 we found that DRR had implemented the controls as
designed.

However, given the increased risks associated with, and attention being placed on,
identity theft, we found opportunities for DRR to strengthen controls over its handling of
bank employee and customer personally identifiable information obtained during the
resolution and receivership process.

      •   DRR has not established a Records Management Program that clearly defines
          recordkeeping requirements for the inventory, maintenance, use, and control of
          hardcopy records containing personally identifiable information from failed
          institutions. Specific recordkeeping practices used by various DRR operating
          groups differed based on business needs and other circumstances but, in most
          cases, were not fully adequate. Further, in a broader view, DRR employees may
          not be sufficiently aware of division-specific recordkeeping requirements,
          including those designed to ensure that personally identifiable information is
          adequately secured. As a result, personally identifiable information could be at
          increased risk of compromise and unauthorized use (DRR’s Records
          Management Program and Controls over Hardcopy Documents).

      •   When we began our audit field work, DRR had not completed PIAs on certain
          systems containing personally identifiable information because DIT had initially
          identified only those systems containing Taxpayer Identification Numbers (TIN)
          as requiring PIAs. As a result, DRR had not ensured that privacy protections and
          Privacy Act requirements were fully considered for DRR systems containing
          personally identifiable information. However, based on our audit work, DRR
          took prompt action to assess the need for and, when necessary, to complete PIAs
          on additional DRR systems (Privacy Impact Assessments).

Finally, other matters came to our attention during the audit relating to the FDIC’s
contract with Iron Mountain, Inc. (Iron Mountain) for off-site records storage and the
FDIC’s overall Records Management Program administered by DOA. With respect to
the Iron Mountain contract, we found that improvements to certain key controls would
increase assurance that Iron Mountain adequately protects the confidentiality of
personally identifiable information and better protect the Corporation’s interests should a
breach of such information occur. Regarding the FDIC’s Records Management Program,
6
    The closings occurred from February 14, 2004 to June 25, 2004.


                                                     6
DOA could assess the adequacy of the program and consider whether: sufficient
attention is given to the management of active records, records management training
should be strengthened, and corporate evaluations of the effectiveness of the Records
Management Program are adequate.


DRR’S RECORDS MANAGEMENT PROGRAM AND CONTROLS OVER
HARDCOPY DOCUMENTS

DRR policies and procedures establish controls over the resolution and receivership
process addressing the custody of records containing bank employee and customer
personally identifiable information. However, DRR has not established a Records
Management Program that clearly defines recordkeeping requirements for the inventory,
maintenance, use, and control of hardcopy records containing personally identifiable
information from failed institutions. Further, the adequacy of the practices for handling
hardcopy documents containing bank employee and customer personally identifiable
information varied within five DRR operating groups. As a result, documents containing
sensitive information under DRR’s control were at greater risk to possible compromise
and unauthorized use.

Records Management Program

FDIC Circular 1210.18 requires division and office directors to support the FDIC
Records Management Program by “Establish[ing] records management programs within
their organizations that are consistent with FDIC policy and executed by division and
office staff.” DRR has designated a records liaison as required by the circular and has
issued some guidance in the area of records management, covering such topics as:
(1) protecting borrower identity, (2) requests by debtors for copies of loan-related
documents, and (3) information systems security responsibilities. However, DRR has not
developed a records management program unique to its business needs to manage records
and ensure records security.

Circular 1210.18 generally states that FDIC divisions and offices should establish the
following recordkeeping requirements:

   •   Documentation of important business decisions reached orally during telephone
       conversations or in meetings.

   •   Documentation on formal meetings of committees and task forces that include the
       materials distributed, decisions reached, and subsequent actions.

   •   Working files such as preliminary drafts, rough notes, and other similar materials,
       which shall be maintained for the purpose of adequate and proper documentation
       if such materials (1) were circulated or made available to employees, other than
       the creator, for official purposes such as approval, comment, action,
       recommendation, or follow-up or to communicate with agency staff about agency


                                            7
       business; or (2) contain unique information, such as substantive annotations or
       comments, that adds to a sufficient understanding of the FDIC’s formulation and
       execution of policies, decisions, actions, or responsibilities.

   •   Provisions in FDIC contracts requiring the contractor to provide any program or
       administrative documentation needed by the FDIC for effective management and
       for documenting the work performed by a vendor.

Further, the circular requires FDIC employees to ensure that their files are complete and
accessible only to authorized individuals by implementing division or office guidelines
for securing confidential information.

In developing guidance for its staff regarding records management, DRR could consider
guidance issued by the Division of Finance (DOF) in a memorandum entitled, Managing
DOF’s Confidential Records, dated August 15, 2005. The guidance provided all DOF
employees with (1) a definition of confidential records; (2) descriptive examples of what
would constitute confidential records; and (3) general guidelines on managing
confidential records, including such practices as maintaining records in locked areas and
routing documents in sealed folders.

DRR Controls Over Hardcopy Documents

DRR is the custodian of records taken from a failed financial institution at closing as well
as records generated during the resolution process. As custodian, DRR is responsible for
properly managing these failed institution records. This responsibility encompasses all
managerial activities involved with respect to the creation, inventory, maintenance, use,
and disposition of the records. Of particular concern to us during this audit was DRR’s
inventorying, handling, storing, and disposing of failed institution records containing
personally identifiable information.

Controls Over Hardcopy Documents DRR Obtained and Generated at Closings. The
institution closing files developed for each of the four failed institutions we reviewed
contained evidence that DRR maintained adequate custody over bank records (including
loan, collateral, payroll, and personnel files). Specifically, the closing files included:
(1) a written record of the FDIC’s appointment as receiver of the failed institution; (2) if
pertinent, a receipt and inventory of items passed on to an assuming institution; and (3) a
detailed listing of the institution’s hardcopy records kept by the FDIC which were
primarily loan files, investigation records, and employee records. The closing files also
included exit memorandums, signed by the cognizant DRR managers, which discussed
the services closing teams performed and any issues dealt with during the closing
process. However, DRR was not always using the FDIC’s Automated Records
Management System (ARMS) for the active asset/credit files of the failed institutions, as
required by Circular 1210.18. We found that only DRR’s Investigations group used
ARMS as an inventory for active records.




                                              8
Controls Over Hardcopy Documents That DRR Maintains. We assessed each DRR
operating group’s controls over hardcopy institution documentation in their possession at
the time of our audit. We specifically determined whether the groups were: (1) keeping
records in locked file cabinets, (2) storing records in locked file rooms, (3) using sign-out
sheets when records are removed, and (4) maintaining an inventory of hardcopy records.
The following table summarizes our assessment of these controls and shows that the
adequacy of the control processes varied among the groups.

Hardcopy Document Handling and Storage
                  Locked File                                             Sign-out       Inventory of
     Group                      Locked File Room
                   Cabinets                                                Sheets       Active Records
Institution Sales    Yes               Yes                                  Yes              N/A
                          a
Asset Sales        Yes/No              Yes                                   No              Yes
Claims               Yes               Yes                                   No              Yes
Investigations        No               Yes                                   No              Yes
General
                      No               Nob                                   No                N/A
Accounting
Source: OIG’s observations and assessment of each group’s practices.
a
  Asset Sales secured the original loan notes and collateral documents in locked file cabinets; however,
other documentation was not secured in locked file cabinets.
b
  Initially, General Accounting did not secure tax documents and related computer equipment. After our
visit, steps were taken to place locks on records storage rooms.

We recognize that general FDIC security in the Dallas Regional Office includes
employee screening, controlled floor access using Smartcard, and building security
personnel who guard the building’s main entrances and monitor the floors. We believe,
however, that more could be done to ensure adequate control over personally identifiable
information as discussed in the following narrative.

         Hardcopy Document Handling and Storage by Institution Sales. DRR
Institution Sales personnel use information acquired from the BIS electronic download of
the bank’s computer system to prepare Information Packages (IP) and to perform Asset
Valuation Reviews (AVR) for valuing and marketing the institution franchise. They
remove no hardcopy records from the failing bank. During the marketing phase of
DRR’s structured bidder selection process, approved bidders have access to selected bank
information online through a secure Web site, INTRALINKS.7 Bidders also have the
opportunity to perform due diligence of the hardcopy loan files on-site at the bank. With
respect to these activities, DRR has issued Circular 7220.5, Protecting Borrower Identity,
which states:

        The FDIC will not disclose within databases, lists or spreadsheet summaries the
        names, addresses or social security numbers (“Identity Information”) of
        individuals who are borrowers or guarantors to prospective purchasers without

7
  INTRALINKS is a private Internet-based company DRR engaged to assist in the marketing of failing
institutions. The purpose of establishing a secure Web site is to provide information in an expeditious
manner on failing financial institutions to potential acquirers.


                                                     9
         first, (i) obtaining an executed or assented to FDIC Confidentiality Agreement8 in
         accordance with the terms of the sale, and (ii) determining that prospective
         purchaser meets the requirements of Paragraph 5 of this circular.

Institution Sales developed procedures and a job aid instructing its employees about how
to oversee the due diligence process. These instructions include: (1) requiring that two
DRR employees be in attendance at all times and (2) prohibiting prospective bidders
from making copies of any institution records. It should be noted that with respect to
on-site bidder due diligence, DRR has made a business decision to allow bidders to
review files that could contain personally identifiable information, such as name, address,
SSN, and account number.

During our walk-through of the Institution Sales offices in Dallas, Texas, we observed
elements of their controls over hardcopy documents. Specifically, we noted that the
internal working documents created from the BIS data for the IP and AVR were stored in
locked file cabinets, inside a secure file room. According to Institution Sales officials in
Dallas, three people control access to this secured file room. Further, Institution Sales
maintained a sign-out sheet in the file room, requiring that personnel needing to work on
a particular file sign for the file. We found recent activity on the sign-out sheet, thereby
providing at least some indication that it was being used.

Because Institution Sales does not remove individual loan files or any other hardcopy
records from the failed bank, a detailed inventory of employee or customer records under
its control is not maintained. However, the group does maintain a folder that lists the
internal working documents created from the BIS download and used during IP and AVR
efforts.

        Hardcopy Document Handling and Storage by Asset Sales. DRR Asset Sales
is responsible for selling a bank’s assets after closure, and Asset Sales personnel are
subject to the same policies and job aids as Institution Sales. The original loan notes and
collateral documents are reviewed at the bank and reconciled with the bank’s records.
The asset sales process includes a due diligence phase that is similar to due diligence
performed during the marketing phase of the bidder selection process. The major
difference is that the due diligence occurs at the FDIC’s Regional Office in Dallas, Texas,
as opposed to on-site at the failed institution. Potential bidders are screened and must
sign confidentiality agreements.

Unlike Institution Sales, Asset Sales takes hardcopy records such as original loan and
collateral files from the failed financial institution. Asset Sales reconciles these files to
the loans on the books of the institution at the closing. This reconciliation is
accomplished before the files are shipped to the Dallas Regional Office. The resulting
loan trial balance becomes the inventory of assets, and a copy of this inventory is placed
in a Closing Manager’s Book. Asset Sales maintains the hardcopy records in a locked

8
 Confidentiality agreements are executed documents whereby a contractor or third party must ensure the
confidentiality of all the information, data, and systems provided by the FDIC or used or obtained by others
under the agreement and prevent its inappropriate or unauthorized use or disclosure.


                                                    10
file room. The original loan and collateral documents are further secured in locked file
cabinets inside the locked room, while other asset files are in unlocked file cabinets
inside the locked file room. Therefore, the other asset files were at a somewhat greater
risk of possible misuse.

        Hardcopy Document Handling and Storage by Claims. DRR Claims primarily
deals with a failed bank’s deposit information and is responsible for determining the
insured and uninsured deposit amounts. Claims starts with the BIS electronic data
download from the bank and, although Claims personnel do not remove any bank records
from the failed financial institution at closing, the working files generated to support the
claims process do contain personally identifiable information regarding customers’
deposit accounts. Deposit information is loaded into the Receivership Liability System
(RLS), and the deposit information in RLS becomes the Claims inventory. All hardcopy
documents generated from the electronic records are locked in file cabinets and stored
inside a secure file room. The file room remains open during the day. Although there is
no sign-out sheet for the file room, the sign-out card for files has to be placed in the file
drawer when files are removed.

On March 31, 2005, Claims management issued a memorandum to all Claims personnel,
establishing standard procedures for the security of system-generated (printed) products
from RLS. The guidance states that if no longer required to be maintained, sensitive
printed documents are to be placed in locked containers for shredding. Further, the
guidance states that sensitive printed data and other storage media documents are not to
be left out or in open common areas such as conference rooms and that at night (after
normal working hours), such documents are to be placed in the claims specialists’ offices
or Claims’ file room.

        Hardcopy Document Handling and Storage by Investigations. Personnel from
DRR Investigations retrieve a wide variety of hardcopy documents during a bank closing.
These documents include corporate charters, stock certificates, board meeting minutes,
insurance policies, files relative to legal matters involving the bank, certain bank
employee payroll and personnel files, and all files pertaining to insider loans or suspected
fraud. The hardcopy files that Investigations personnel acquire at or after the closing are
shipped to the Dallas Regional Office and kept in a locked central file room or
maintained in an individual investigator’s office. A list of the documents retrieved by
Investigations is prepared and placed in the Closing Manager’s Book. At the Dallas
Regional Office, information from the retrieved documents is loaded into ARMS, and the
information in ARMS becomes the inventory for both active and inactive Investigations
records. We observed that the investigators’ offices were not locked after normal
working hours, so anyone having or gaining access to the Dallas Regional Office could
gain access to these records.

During one walk-through of the Investigations’ area in Dallas, we observed that the file
room was unlocked during the day. We also noted that Investigations was not making
use of a sign-out sheet. After discussing our observations with the Investigations
manager, the manager sent the group an e-mail, which stated “to comply with data



                                             11
security requirements, the door to the file room needs to be closed and locked when not
in use.” Subsequently, we visited the location and noted that the file room was locked.

        Hardcopy Document Handling and Storage by General Accounting. DRR’s
General Accounting prepares federal and state tax reporting documents for the
receiverships. These reports include Wage and Tax Statements (Forms W-2) to bank
employees, Mortgage Interest Statements (Forms 1098) to bank borrowers, and various
Forms 1099 that report such information as interest earned and forgiveness of debt.
These documents contain a host of personally identifiable information including name,
address, SSN, and balances on customer accounts. General Accounting personnel do not
remove hardcopy records containing personally identifiable information from the failed
financial institutions. Instead, they use the BIS electronic data download to create the
aforementioned tax information. General Accounting uses two data systems to create this
tax information—Tax Track for receivership tax returns and Checkrite for Forms W-2,
1098, and 1099.

When we began our audit, General Accounting personnel maintained hard copies of
Forms W-2, 1098, and 1099 in unlocked file cabinets in two unlocked file rooms. Also,
according to one tax accountant, tax files were often left overnight in a person’s office
until such time as work was completed and the files were placed into the file cabinets.
On December 15, 2005, we brought this situation to DRR management’s attention and,
subsequently, locks were installed on the file room doors, thereby addressing that issue.

Conclusion

DRR was not fully complying with the requirement in FDIC Circular 1210.18, FDIC
Records Management Program, that each division establish a Records Management
Program consistent with FDIC policy. DRR has established certain controls in its
Closing Manual and various other procedures and practices to address security for
personally identifiable information. However, DRR could better ensure that adequate
controls are implemented by establishing a Records Management Program that more
broadly defines the types of data that should be secured and the proper means of doing
so. Without these additional controls, personally identifiable information is at greater
risk of compromise and unauthorized use.

Recommendation

We recommend that the Director, DRR, work with DOA, and other cognizant FDIC
divisions and offices, in developing a DRR Records Management Program that includes
guidelines for the inventory, maintenance, use, and control of hardcopy records
containing personally identifiable information from failed institutions.




                                            12
CORPORATION COMMENTS AND OIG EVALUATION

On September 11, 2006, the Director, DRR, provided a written response to the draft of
this report. The DRR response is presented in its entirety in Appendix IV. A summary
of management’s response to the recommendation is in Appendix V.

In its response, DRR concurred with the recommendation and stated that it is forming a
working group, which, in consultation with DOA and others, will develop records
management guidance specific to their needs. The guidance will address inventorying,
maintaining, using, accounting for, and controlling hardcopy records that contain
personally identifiable information.

DRR’s planned action is responsive to our recommendation. Accordingly, the
recommendation is resolved but will remain open until we have determined the agreed-to
corrective action has been completed and is effective.


PRIVACY IMPACT ASSESSMENTS

Based on our review of DRR’s inventory of automated systems and discussions with
DRR officials, we determined that as of October 2005, DRR had completed PIAs for only
12 of 27 data systems that could have contained personally identifiable information. This
shortfall occurred because DRR had completed PIAs only on DRR data systems that DIT
had initially identified as containing Taxpayer Identification Numbers (TIN). As a result
of this narrow focus, DRR may not have been in full compliance with the E-Government
Act of 2002, which we concluded requires that DRR conduct PIAs on all DRR data
systems containing bank customer and employee personally identifiable information.
Prior to completion of our fieldwork, DRR re-evaluated its systems and conducted PIAs
on all those systems warranting the assessments.

In addition to the 12 DRR data systems that DIT had initially identified as containing
TIN information, and for which DRR completed PIAs, we identified 15 other DRR
systems that appeared to contain personally identifiable information. For example, DRR
had not completed a PIA for its Pension Tracking System (PENTRACK), which is used
to manage and distribute funds in benefits plans for employees of failed institutions not
assumed by an acquirer. A PIA was also not completed for the Best Bank Credit Card
System, which is used to administer the credit card portfolio of over 600,000 accounts
inherited from Best Bank when it failed. Both of these systems appeared to contain
personally identifiable information.

Although DIT initially focused attention on conducting PIAs on FDIC automated systems
containing TINs, OMB guidance to agencies on implementing privacy provisions of the
E-Government Act suggests that this definition was too narrowly focused. Specifically,
OMB guidance states:




                                            13
       Information in identifiable form is information in an IT system or online
       collection: (i) that directly identifies an individual (e.g., name, address, social
       security number or other identifying number or code, telephone number, e-mail
       address, etc.) or (ii) by which an agency intends to identify specific individuals in
       conjunction with other data elements, i.e., indirect identification. (These data
       elements may include a combination of gender, race, birth date, geographic
       indicator, and other descriptors.)

In late November and early December 2005, we met with DIT and DRR officials to
discuss the 15 other DRR data systems that we had identified as possibly containing
personally identifiable information. At that time, the officials agreed to reassess the need
to complete PIAs on these 15 systems and 3 additional systems that the divisions had
independently identified as possibly needing PIAs (thus increasing the total number of
systems to 30). As of May 23, 2006, DRR had completed 8 additional PIAs for a total of
20 PIAs related to DRR data systems. DRR notified us that it had determined that the 10
remaining data systems that are assessed do not warrant PIAs because the systems either
have been replaced or do not contain personally identifiable information, and we
concurred with DRR’s assessment.

Because DRR has either completed the required PIAs or determined that PIAs were not
warranted for the identified data systems, we are not making a formal recommendation in
this report. Additional details on the DRR data systems and PIA status are in
Appendix III.


OTHER MATTERS WARRANTING MANAGEMENT ATTENTION

During the course of our audit, we also identified opportunities for the FDIC to improve
controls over the protection of personally identifiable information in two other areas. The
first area relates to the FDIC’s records storage contract with Iron Mountain, and the
second to the FDIC’s overall Records Management Program.

FDIC’s Contract With Iron Mountain

With respect to the FDIC’s records management storage contract with Iron Mountain, we
found that DOA had not (1) executed a confidentiality agreement with Iron Mountain,
(2) developed a contract oversight management plan, and (3) completed background
investigations on certain Iron Mountain employees. We addressed these matters and
made recommendations in Audit Report No. 06-016 entitled, Controls Over the Disposal
of Sensitive FDIC Information by Iron Mountain, Inc., dated August 10, 2006. As a
result, we are not making recommendations in this report regarding the Iron Mountain
contract.




                                             14
FDIC’s Records Management Program

We identified opportunities for the FDIC to enhance its overall Records Management
Program by more closely complying with existing federal records management guidance
promulgated by NARA. Specifically, DOA should consider whether (1) sufficient
attention is given in existing policies and procedures to the management of active
records, (2) records management training needs to be strengthened, and (3) corporate
evaluations of the Records Management Program are adequate.

As previously stated, federal guidance related to records management is promulgated by
NARA. NARA guidance specifies that, among other things, agencies must:

   •   Institute adequate records management controls over the maintenance and use of
       records wherever they are located to ensure that all records (active and inactive),
       regardless of format or medium, are organized, classified, and described to
       promote their accessibility and make them available for use by all appropriate
       agency personnel for their authorized retention period.

   •   Ensure that adequate training is provided to all agency personnel on policies,
       responsibilities, and techniques for the implementation of recordkeeping
       requirements.

   •   Evaluate, periodically, agency Records Management Programs relating to records
       creation and recordkeeping requirements, maintenance and use of records, and
       records disposition. These evaluations should determine compliance with NARA
       requirements, including requirements for storage of agency records and storage
       facilities, and assess the effectiveness of the agency’s Records Management
       Program.

FDIC’s Focus on Inactive Records. Circular 1210.18 references the three phases of the
life cycle of a record: creation, maintenance, and disposition. However, the circular
contains few specific procedures related to the handling of active records. In addition,
the FDIC directives on records disposition, records retention and disposition schedules,
and standards for creating record inventories focus on the handling of inactive records.
Consequently, as a whole, the FDIC’s Records Management Program may not adequately
consider the handling of active records maintained by FDIC divisions and offices. This
impacts DRR because it is responsible for handling failed institution records for which
the FDIC, as custodian of those records, has responsibility.

According to DOA’s Assistant Director, Corporate Support Section, the FDIC’s Records
Management Program focuses on inactive records being inventoried and placed into off-
site storage. The Assistant Director stated that it is up to the divisions and offices to set
policies and procedures for managing records in an active status within their business
units.




                                             15
FDIC’s Records Management Training. The FDIC does not provide comprehensive
records management training to FDIC employees. Rather, records management training
is currently limited to training in the inventorying and retrieving of inactive records using
ARMS. Because FDIC personnel are not receiving comprehensive records management
training, personnel may not be sufficiently aware of their responsibilities for handling and
protecting records containing personally identifiable information.

We discussed the issue of records management training with key DOA and DRR
officials. The DOA’s Assistant Director, Corporate Support Section, stated that DOA
does not provide records management guidance or training to the division records
liaisons, although training is available through NARA. DRR Records Liaisons in
Washington and Dallas told us that that they have received no formal Records
Management Program training. Also, we noted no records management training courses
on the Corporate University Web site.

DOA and DRR officials indicated that there is a need for corporate awareness and
training on records management procedures and practices. For example, DRR officials
stated that the roles of the division Records Liaisons are not well defined, no training
other than ARMS usage has been offered, and there is no specific guidance for the
Records Liaisons on records management issues. However, DOA is reviewing available
NARA training provided by the U.S. Office of Personnel Management and is considering
making similar training mandatory for all FDIC employees.

Records Management Program Evaluations. The FDIC has not conducted periodic
evaluations of its Records Management Program to determine consistency with NARA
regulations. Rather, DOA has conducted only limited evaluations of records handling.
For example, in October 2003, DOA conducted an Administrative Compliance Review,
which measured compliance with established policies and procedures for records being
shipped out of the Dallas Region to Iron Mountain. This review focused on inactive
records. In October 2005, DOA performed an Internal Control Review to determine
whether records were destroyed in accordance with policy. This review also focused on
inactive records.

Additionally, DRR has not assessed division records management practices for
compliance with NARA requirements. DRR Records Management Liaisons and Internal
Review officials knew of no periodic assessments of records management practices.
However, the officials told us that DRR’s Senior Management Oversight Committee is
completing an initiative to look at records retention and disposition schedules related to
inactive records for DRR’s various business groups.

Conclusion

The matters discussed above are beyond the scope of this audit. As a result, the OIG has
included an audit in its fiscal year 2007 Assignment Plan that will address corporate-wide
records management. Accordingly, we are not making recommendations to DOA in this




                                             16
report. However, we are providing this information for consideration in the drafting of
the FDIC records management manual, which is currently ongoing within DOA.


CORPORATION COMMENTS AND OIG EVALUATION

On September 12, 2006, the Director, DOA, provided a written response to the draft of
this report. The DOA response is presented in its entirety in Appendix IV. In its
response, DOA stated that with respect to the Iron Mountain contract issues, DOA
generally agreed with the OIG recommendations made in the OIG report entitled,
Controls Over the Disposal of Sensitive FDIC Information by Iron Mountain, Inc., and is
in the process of taking the necessary corrective actions. With respect to the records
management program issues, DOA stated that it has taken steps to establish a control
framework in the Records Management Program in order to provide the controls to
mitigate potential risks to the FDIC but recognizes that it is important to continue to
evaluate and improve upon its business operations. In that regard, DOA indicated that it
will consider the information we provided as the division continues to improve the
Program.

We consider DOA’s comments to be responsive to these two matters. As previously
discussed, we will be conducting a future audit in this area and will follow up on DOA’s
actions at that time.




                                           17
                                                                            APPENDIX I


                   OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The overall audit objective was to determine whether DRR adequately protects
personally identifiable information collected and maintained as a result of resolution and
receivership functions. In this audit, we focused on DRR efforts to protect information
maintained in hardcopy form. We limited our review of DRR’s protection of sensitive
information in electronic form to DRR’s completion of risk assessments associated with
systems containing such information.

Scope and Methodology

We performed our audit from July 2005 through March 2006 in accordance with
generally accepted government auditing standards. We performed field work in DRR,
DOA, and DIT offices in Washington, D.C. In addition, we performed field work in the
Dallas Regional Office to assess the safeguards over handling and storing failed
institutions records currently being maintained by DRR.

To accomplish our objective, we performed the following:

   •   Identified criteria used to establish the definition of personally identifiable
       information.
   •   Reviewed relevant criteria including, but not limited to, the Privacy Act of 1974;
       E-Government Act of 2002; OMB Circular No. A-130; and Section 522 of the
       Transportation, Treasury, Independent Agencies, and General Government
       Appropriations Act, 2005.
   •   Reviewed the DRR Privacy Act System of Record Notices that contained
       employee information.
   •   Reviewed and discussed with other OIG audit teams the status of activities and
       initiatives related to the development of a comprehensive privacy program for the
       Corporation.
   •   Reviewed OMB guidance related to conducting PIAs as well as relevant FDIC
       guidelines. We confirmed that PIAs had been completed on the 20 DRR
       applications that DRR and DIT determined warranted the assessments.
   •   Reviewed DRR’s resolution and receivership policies, procedures, and practices
       for safeguarding personally identifiable information during the resolution and
       receivership process.
   •   Discussed DRR practices and procedures regarding safeguarding personally
       identifiable information with each of the DRR operating group managers in the
       Dallas Regional Office.
   •   Observed the operations of the Dallas operating group file storage rooms.
   •   Discussed with DRR Business Project officials in Washington, D.C., DRR
       initiatives for identifying data systems and safeguarding personally identifiable
       information within the data systems.



                                            18
                                                                             APPENDIX I


   •   Obtained NARA information on records management administration guidance
       and discussed the Records Management Program with the DRR Records Liaisons
       in the Dallas Regional Office and DRR headquarters.
   •   Discussed and coordinated our audit with DRR’s Internal Review group.

DOA administers a corporate-wide Records Management Program for which we
performed the following:

   •   Reviewed DOA’s Records Management Program and pertinent directives.
   •   Discussed with DOA officials the handling, storage, and retrieval of failed
       institution records.
   •   Assessed DOA’s storage contract with Iron Mountain and talked with DOA
       contract oversight officials in Washington, D.C., regarding site visits and contract
       employee practices relating to safeguarding personally identifiable information.
   •   Reviewed the FDIC’s Acquisition Policy Manual to identify provisions related to
       Contractor Confidentiality Agreements and the Privacy Act and reviewed selected
       contract files to determine whether appropriate provisions and clauses related to
       privacy and confidentiality agreements had been included.

Internal Controls

We gained an understanding of relevant control activities by reviewing (1) FDIC
security-related directives; (2) DRR policies, procedures, and practices for resolution and
receivership functions such as bank closings, asset disposition, claims, and terminations;
(3) DRR’s initiatives to enhance its privacy program; (4) DIT general rules of behavior
for utilizing FDIC information resources; and (5) DOA policies, procedures, and
practices for the inventory, handling, storage, and retrieval of inactive failed institution
records. We interviewed individuals in DRR, DIT, and DOA involved in protecting and
securing personally identifiable information. Based on these reviews, we identified key
internal controls over hardcopy documents DRR obtained and generated at institution
closings as well as documents DRR was currently maintaining. In the course of our
audit, we tested these controls.

Reliance on Computer-Based Data

We did not assess the reliability of computer-based data as it was not significant to
meeting our audit objectives.

Compliance With Laws and Regulations, Government Performance and Results
Act, and Fraud or Illegal Acts

Regarding compliance with laws and regulations, the Background section of this report
discusses various federal laws and guidance related to the protection of personally
identifiable information. We considered the FDIC’s compliance with these laws and
regulations in conducting our audit work. Appendix II lists the specific references to
pertinent laws, regulations, and FDIC policies. This report discusses steps that the FDIC


                                             19
                                                                             APPENDIX I

has taken to comply with the intent of these laws and guidance and contains one
recommendation for improvement in that regard.

We reviewed the FDIC’s performance measures under the FDIC’s Strategic Plan 2005-
2010 and the FDIC’s 2005 Annual Performance Plan. We also reviewed DRR’s 2003,
2004, and 2005 Strategic Plans. We determined that neither the FDIC nor DRR have
performance measures related to the protection of personally identifiable information.

In consideration of the potential misuse of personally identifiable information for identity
theft purposes, we were alert throughout the audit to the potential for fraud and illegal
acts. Except for a security breach involving the personal information of current and
former FDIC employees, mentioned under the Summary of Prior Coverage below, no
instances came to our attention.

Summary of Prior Coverage

The FDIC OIG has issued five prior reports related to safeguarding sensitive information
or records storage.

   •   On August 10, 2006, the OIG issued Audit Report No. 06-016, Controls Over the
       Disposal of Sensitive FDIC Information by Iron Mountain, Inc. The objective of
       the audit was to determine whether the FDIC had adequate controls for ensuring
       the secure disposal of sensitive information by Iron Mountain. We reported that
       the FDIC had established a number of key controls to ensure the secure disposal
       of sensitive information by Iron Mountain. However, we also reported that the
       FDIC needed to improve its oversight of the Iron Mountain contract to ensure that
       controls designed to safeguard the disposal of sensitive information were
       effectively implemented.

   •   On January 6, 2006, the OIG issued Evaluation Report No. 06-005, FDIC
       Safeguards Over Personal Employee Information. This audit was conducted in
       response to a security breach involving unauthorized access to personal employee
       information on a large number of current and former FDIC employees. The
       objective of the review was to evaluate the FDIC’s policies, procedures, and
       practices for safeguarding personal employee information in hardcopy and
       electronic form. We reported that the FDIC had a corporate-wide program for
       protecting personal employee information, had appointed a CPO with
       responsibility for privacy and data protection policy, and made efforts to enhance
       its privacy program in response to legislative requirements and breaches of FDIC
       employee information. We also identified opportunities for the FDIC to
       strengthen its privacy program for protecting personal employee information.

   •   On September 16, 2005, the OIG issued Report No. 05-033, Response to Privacy
       Program Information Request in OMB’s Fiscal Year 2005 Reporting Instructions
       for FISMA and Agency Privacy Management, which addressed the status of the
       FDIC’s privacy program and related activities. This audit was conducted in


                                             20
                                                                        APPENDIX I

    response to a request for privacy program information contained in OMB’s
    June 13, 2005, memorandum entitled, FY 2005 Reporting Instructions for the
    Federal Information Security Management Act and Agency Privacy Management.
    The objective of the audit was to determine the current status of the FDIC’s
    efforts to implement a corporate-wide privacy management program. We
    concluded that although FDIC actions were positive, the FDIC needed to
    complete a number of ongoing initiatives to ensure adequate protection of
    personally identifiable employee information in compliance with federal privacy-
    related statutes, policies, and guidelines.

•   On September 30, 2004, the OIG issued Report No. 04-045, Records
    Management and Storage. The objective of this audit was to determine whether
    (1) the contract for records storage was cost-effective and (2) the FDIC’s
    procedures were consistent with other best practices in the federal government
    and private industry. We concluded that the FDIC’s contract with Iron Mountain,
    Inc. for records storage could be more cost-effective.

•   On February 14, 2003, the OIG issued Report No. 03-012, Control Over the Use
    and Protection of Social Security Numbers by Federal Agencies, on the controls
    over FDIC use and protection of SSNs. We conducted the review based on
    congressional interest regarding the widespread sharing of personally identifiable
    information and occurrences of identity theft. The Chairman, Subcommittee on
    Social Security, House Ways and Means Committee, asked the President's
    Council on Integrity and Efficiency (PCIE) to review federal agencies' methods
    for disseminating and controlling SSN data collected from third parties. The
    FDIC OIG, as a member of the PCIE, performed the audit to assess the adequacy
    of the FDIC's control over the use and protection of SSN information. In
    conducting the audit, we focused on SSN information about non-employees such
    as depositors, debtors, and loan guarantors that was obtained from failing
    financial institutions insured by the FDIC. We concluded that third-party access
    to and use of SSNs and other personally identifiable information was not
    adequately controlled and monitored.




                                        21
                                                                                         APPENDIX II


  LAWS, REGULATIONS, AND FDIC DIRECTIVES APPLICABLE TO DRR’S
    PROTECTION OF PERSONALLY IDENTIFIABLE INFORMATION

Laws, Regulations & Policies            Description
Privacy Act of 1974                     Provides specific guidance to federal agencies, including the
                                        FDIC, on the control and release of agency records that relate to
                                        individuals. The Act establishes safeguards for the protection of
                                        records the federal government collects and maintains on
                                        individuals.

E-Government Act of 2002                Establishes a broad framework of measures requiring use of
(Federal Information Security           Internet-based information technology to enhance citizen access to
Management Act (FISMA))                 government information and increase citizen participation;
                                        improve government efficiency and reduce government costs; and
                                        promote interagency collaboration in providing electronic
                                        government services to citizens and use of internal electronic
                                        government processes to improve efficiency and services
                                        provided. Section 208 of Title II of the Act, applicable to the
                                        FDIC, includes procedures to ensure the privacy of personal
                                        information in electronic records, including agency preparation of
                                        PIAs on agency information systems. Title III of the Act, or
                                        FISMA, contains a number of provisions dealing with the
                                        protection of information in agency information systems, as well
                                        as other security-related matters. Many of these provisions apply
                                        to the FDIC.

Section 522 of the Transportation,      Requires federal agencies, including the FDIC, to designate a
Treasury, Independent Agencies, and     Chief Privacy Officer to carry out duties relating to the privacy and
General Government Appropriations       protection of personally identifiable information collected and
Act, 2005                               used by federal agencies. The requirements include safeguarding
                                        information systems from intrusions, unauthorized disclosures, and
                                        disruption or damage.

NARA: Title 36 Code of Federal          According to these regulations, promulgated by the NARA,
Regulations, sections 1220.36 et seq.   agencies must institute adequate records management controls
                                        over the maintenance and use of records wherever they are located
                                        to ensure that all records, regardless of format or medium, are
                                        organized, classified, and described to promote their accessibility
                                        and make them available for use by all appropriate agency staff for
                                        their authorized retention period. Agencies must ensure that they
                                        maintain adequate information about their records moved to an
                                        off-site records storage facility. Agencies must ensure the proper,
                                        authorized disposition of their records and must periodically
                                        evaluate records management programs. The FDIC follows
                                        NARA’s regulations as a matter of policy.

                                        NARA publishes handbooks, conducts training sessions, and
                                        furnishes information and guidance to federal agencies about the
                                        creation of records, their maintenance and use, and their
                                        disposition.




                                                    22
                                                                                        APPENDIX II

Laws, Regulations & Policies              Description
OMB Circular No. A-130                    Establishes policies for federal agencies for the management of
Management of Federal Information         federal information resources, including automated
Resources                                 information systems. Appendix I of the circular specifically
                                          covers agency responsibilities, including those of the FDIC, for
                                          implementing the reporting and publication requirements of the
                                          Privacy Act.

FDIC Circular 6371.1, Bidders List        Establishes a process for preparing and clearing the bidders list
Preparation and Clearance Process         used in resolving failing institutions. DRR will forward only
                                          the names of interested bidders to the Division of Supervision
                                          and Consumer Protection, which is responsible for pre-
                                          approving potential bidders for failing institutions and for
                                          assessing the risk to the deposit insurance fund(s) posed by
                                          potential resolution transactions.

FDIC Circular 1031.1, Administration of   Updates procedures and provides guidance for the appropriate
the Privacy Act                           collection, maintenance, use and/or dissemination of records
                                          subject to the Privacy Act of 1974.

FDIC Circular 1210.1, FDIC Records        Provides updated guidelines applicable to the maintenance and
Retention and Disposition Schedule        disposition of records.

FDIC Circular 1210.4, Records             Defines responsibilities for managing the records disposition
Disposition                               process and the actions to be taken when records are no longer
                                          needed to conduct business.

FDIC Circular 1210.16, Standards for      Establishes standards for inventories of failed institution
Creating Records Inventories              records. The circular distinguishes between inactive and active
                                          records, requiring that inactive records be stored off-site.

FDIC Circular 1210.18, FDIC Records       Defines the FDIC’s Records Management Program. The
Management Program                        circular describes records, recordkeeping, maintenance, use,
                                          and disposition procedures. It requires that ARMS be used by
                                          divisions and offices to inventory, physically track, and
                                          research both corporate and institution records. Use of this
                                          system is mandatory for all inactive records stored off-site and
                                          for the active asset/credit files of failed institutions.

FDIC Circular, 1301.3, Data               Establish business accountability and responsibility for
Stewardship Program                       managing and sharing corporate data.

FDIC Circular 1310.3, Information         Updates policies and responsibilities applicable to the FDIC IT
Technology Security Risk Management       Security Risk Management Program.
Program

FDIC Circular 1360.1, Automated           Assigns roles and responsibilities for ensuring adequate levels
Information Systems (AIS) Security        of protection for FDIC automated information systems and the
Program                                   information processed, stored, or transmitted by them; and
                                          establishes a base program framework for organization-wide
                                          IT security program objectives.




                                                  23
                                                                                         APPENDIX II

Laws, Regulations & Policies                Description
FDIC Circular 1360.8, Information           Provides a standard framework for categorizing all information
Security Categorization                     collected or maintained by or on behalf of the FDIC for the
                                            purpose of providing appropriate levels of information security
                                            according to a range of risk levels.

FDIC Circular 1360.15, Access Control       Revises policies and roles and responsibilities for managing
for Automated Information Systems           access to FDIC automated information systems and data.

DRR Circular 1360.1, Information            Restates the division’s commitment to the protection of
Security Responsibilities                   information systems against unauthorized access to or
                                            modification of information and against the denial of service to
                                            authorized users. Also, it restates the division’s commitment
                                            to safeguarding the Corporation’s data and to update security
                                            procedures for the division’s information systems.


DRR Circular 7010.1, Request by             Advises employees that records should contain only such
Debtors of Failed Institutions for Copies   information about an individual as is relevant and necessary to
of Their Loan Files, Notes, and Other       accomplish a purpose of the agency and the circumstances
Loan Related Documents                      when information in the system of records may be disclosed to
                                            parties other than the debtor.

DRR Circular 7220.5, Protecting             Establishes DRR’s policy on the protection of information
Borrower Identity                           related to the identity of borrowers and guarantors when
                                            offering loans and other debts for sale.




                                                    24
                                                                                      APPENDIX III


        STATUS OF PRIVACY IMPACT ASSESSMENTS FOR DRR DATA SYSTEMS

                                               DRR Data           Additional DRR         DRR Data Systems
                                              Systems With       Data Systems With        Assessed by DRR
 DRR Data Systems That May Contain
                                             Completed PIAs       Completed PIAs           and DIT as Not
  Personally Identifiable Information
                                             (as of 10/31/05)      (as of 5/31/06)          Needing PIAs
Asset Marketing System (AMS)                                                                     9
Asset Reporting Information System                                                               9
(ARIS)
Asset Servicing Technology Enhancement                                    9
Program (ASTEP)
Best Bank Credit Card System (BBCC)                                       9
Collateral and Possessory System (CAPS)                                                          9
Combined Asset Reporting Database                   9
(CARD)
Credit Notation System (CNS)                        9
Customer Service Contact System (CSCS)                                                           9
Control Totals Module (CTM)                         9
Dividend Processing System (DPS)                    9
DRR Locator and Reporting System                    9
(DOLLARS)
FDIC Automated Corporate Tracking                                         9
System (FACTS)
FDIC Real Estate Retrieval System                                                                9
(DRRORE)
FDIC SALES                                                                9
FDIC Unclaimed Funds System (FUNDS)                                       9
INTRALINKS                                                                                       9
National Asset Inventory System (NAIS)              9
National Inventory System (NIS)                     9
National Insurance System Extranet Web              9
Page (NISExt)
National Processing System (NPS)                                                                 9
Overarching Automation System (OASIS)               9
Owned Real Estate System (ORES)                     9
Pension Tracking System (PENTRACK)                                        9
PROFORMA (PROFORMA)                                                                              9
Receivership Liability System (RLS)                 9
Risk Analysis and Value Estimation System                                 9
(RAVEN*)
Securitization Transactions Asset and                                                            9
Certification Database (STAC*)
Servicing Request Tracking System II                9
(STSII)
Subsidiary Information Management                                                                9
Network (SIMAN)
Warranties and Representations Accounts                                   9
Processing System (WRAPS*)
Totals          30                                  12                    8                      10
    Source: OIG analysis of information from the DRR Business Project Manager’s Group.
    *
     DRR identified three data systems (RAVEN, STAC, and WRAPS) in addition to the initial 27 data
    systems the OIG had asked DRR to review. Hence, we have included 30 DRR data systems.




                                                     25
Appendix IV
Appendix IV
     APPENDIX IV




28
                                                                                                                                               APPENDIX V

                                           MANAGEMENT RESPONSE TO RECOMMENDATION
This table presents the management response on the recommendation in our report and the status of the recommendation as of the date
of report issuance.

                                                                                                                                         Open
                                                                                                                            a
                                                                     Expected               Monetary             Resolved:                or
         Corrective Action for the Recommendation:                  Completion              Benefits             Yes or No              Closedb
                  Taken or Planned/Status                              Date
     DRR is forming a working group, which, in consultation
     with DOA and others, will develop records management
     guidance specific to DRR’s needs. The guidance will            June 30, 2007              NA                    Yes                 Open
     address inventorying, maintaining, using, accounting for,
     and controlling hardcopy records that contain personally
     identifiable information.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
              as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               29
